                                       A MESSAGE FROM THE
                                        INSPECTOR GENERAL
I am pleased to present this Semiannual Report to Congress on the
activities and accomplishments of the Nuclear Regulatory Commission
(NRC) Office of the Inspector General (OIG) from October 1, 2008, to
March 31, 2009.

Our work reflects the legislative mandate of the Inspector General Act,
which is to identify and prevent fraud, waste, and abuse through the
conduct of audits and investigations relating to NRC programs and opera-
tions. The audits and investigations highlighted in this report demonstrate
our commitment to ensuring integrity and efficiency in NRC’s programs
and operations.

During this semiannual reporting period, we issued 9 program audit reports and 4 contract audit
reports. As a result of this work, OIG made a number of recommendations to improve the effec-
tive and efficient operation of NRC’s safety, security, and corporate management programs. OIG
also opened 24 investigations, and completed 14 cases. Five of the open cases were referred to the
Department of Justice, and 22 allegations were referred to NRC management for action. In addition,
we referred 2 cases to State authorities.

My office is dedicated to maintaining the highest possible standards of professionalism and quality
in its audits and investigations. I would like to acknowledge our auditors, investigators, and support
staff for their superior work and commitment to the mission of our office. I also want to congratulate
the members of my audit and investigation staff who recently received awards issued by the Presi-
dent’s Council on Integrity and Efficiency. These awards were received for the staff ’s noteworthy
accomplishments in strengthening public health and safety and the environment, and increasing
the economy, efficiency, and effectiveness with which NRC manages and exercises stewardship over
its resources.

Finally, the success of the NRC OIG would not be possible without the collaborative work
between my staff and agency managers to address OIG findings and to implement the corrective
actions recommended by my office. I wish to thank these employees for their dedication and support,
and I look forward to their continued cooperation as we work together to ensure the integrity of
agency operations.



Hubert T. Bell


                                                                                                   i
Inspector General


                                                                     October 1, 2008 – March 31, 2009
ii
NRC
NRC OIG SEEMIANNUAL
           MIA
           MIANNUAL REP
              NNUAL  EPORT
                     EPO
                       ORT
                                                                                                 CONTENTS
Highlights....................................................................................................................v
Overview of the NRC and the OIG.........................................................................1
	     NRC’s Mission......................................................................................................1
	     OIG History, Mission, and Goals.......................................................................2
		          Inspector General History............................................................................2
		          OIG Mission and Goals.................................................................................2
OIG Programs and Activities...................................................................................4
	     Audit Program......................................................................................................4
	     Investigative Program..........................................................................................5
	     General Counsel Activities..................................................................................6
		          Regulatory Review.........................................................................................6
	     OIG Activities.....................................................................................................10
		          Support of the Inspector General Community in Training....................10
	     Other Activities...................................................................................................10
		          NRC OIG Receives PCIE Awards for Excellence.....................................10
Management and Performance Challenges.........................................................15
Audits..........................................................................................................................16
	     Audit Summaries................................................................................................16
	     Audits In Progress..............................................................................................26
Investigations............................................................................................................31
	     Investigative Case Summaries...........................................................................31
Statistical Summary of OIG Accomplishments..................................................36
	     Investigative Statistics........................................................................................36
	     Audit Listings......................................................................................................38
Audit Resolution Activities....................................................................................41
Abbreviations and Acronyms.................................................................................45
Reporting Requirements.........................................................................................46


                                                                                                                                     iii
                                                                                              October 1, 2008 – March 31, 2009
iv
NRC OIG SEMIANNUAL REPORT
                                                                    HIGHLIGHTS
The following two sections highlight selected audits and investigations completed
during this reporting period. More detailed summaries appear in subsequent
sections of this report.

AUDITS
•	 The Chief Financial Officers Act requires OIG annually to audit NRC’s prin-
   cipal financial statements. An independent public accounting firm conducted
   the audit with OIG oversight.

•	 The National Source Tracking System (NSTS) is an NRC initiative designed
   to allow Agreement State and Federal Government agencies to track trans-
   actions of specific types and quantities of radiological sealed sources. NRC
   awarded a contract worth approximately $15 million in December 2005 for
   NSTS information system development, operational support, and maintenance.
   This contract included approximately $3.1 million to fund information system
   development. The audit objective was to evaluate the agency’s management
   of NSTS information system development and assess delays in the develop-
   ment process.

•	 NRC established its Committee to Review Generic Requirements (CRGR) in
   November 1981 to help ensure that proposed generic backfits to be imposed
   on NRC-licensees are appropriately justified based on NRC’s regulations
   and backfit policy. Simplified, a backfit is a modification to a facility, or the
   procedures or organization required to operate the facility, due to a new or
   amended NRC regulation, rule, or interpretation. The objective of this audit
   was to determine if the CRGR adds value for the Executive Director for
   Operations’ decisionmaking purposes and whether the committee’s function
   is still needed.

•	 An Occupant Emergency Program (OEP) is defined as a short-term emer-
   gency response program that establishes procedures for safeguarding lives and
   property during emergencies. A fundamental part of an OEP is an occupant
   emergency plan containing a set of procedures to protect life and property
   in a specific federally occupied space under defined emergency conditions.
   Federal management regulations require every facility owned or leased by


                                                                                                  v
                                                                      October 1, 2008 – March 31, 2009
                       the Federal Government to have an occupant emergency plan. These regula-
                       tions contain detailed information on how the plan should be developed and
                       implemented. The audit objective was to evaluate the extent to which the
                       agency’s OEP complies with Federal regulations and standards.

                   •	 In accordance with section 274 of the Atomic Energy Act, as amended, NRC
                      may relinquish its authority to regulate byproduct, source, and limited quantities
                      of special nuclear material to States. These States must first demonstrate that
                      their regulatory programs are adequate to protect public health and safety and
                      compatible with NRC’s program. States that have entered into an agreement
                      assuming this regulatory authority from NRC are called Agreement States.
                      NRC has programmatic responsibility to periodically review the actions of
                      the Agreement States to comply with the requirements of the Atomic Energy
                      Act. The audit objective was to assess NRC’s oversight of the adequacy and
                      effectiveness of Agreement State programs.

                   •	 NRC maintains two warehouses, referred to as the main warehouse and the
                      annex, located about a mile away from the agency’s main headquarters buildings.
                      These warehouses are used to receive, store, and deliver property, equipment,
                      and supplies needed for NRC operations. The main warehouse also contains
                      a security lockup cage used to store sensitive property. As of February 2009,
                      the two warehouses contained almost 16,000 pieces of property and equip-
                      ment with an initial acquisition cost of approximately $5.1 million. The audit
                      objective was to determine whether NRC has established and implemented
                      an effective system of internal controls for maintaining accountability and
                      control of agency property stored in the warehouses.

                   INVESTIGATIONS
                   •	 OIG completed an investigation into an allegation by a New Jersey resident
                      concerning a counterfeit check that appeared to come from the NRC, which
                      they received for items sold over the Internet.

                   •	 OIG completed an investigation involving an NRC contractor, Science Appli-
                      cations International Corporation, which violated the False Claims Act by
                      not disclosing conflicts of interest.


vi
NRC OIG Semiannual Report
•	 OIG conducted an investigation into an allegation made by a former NRC
   staff member who claimed that NRC management ignored safety concerns
   regarding a license application for a Mixed Oxide Fuel Fabrication Facility in
   Aiken, South Carolina. The former staff member alleged that NRC manage-
   ment did not ask the license applicant to clarify safety significant portions of
   their application.

•	 OIG completed an investigation into a 2007 allegation that there were irradi-
   ated gemstones, not regulated by NRC, widely available in the United States
   and that NRC did not know whether the gemstone radioactivity levels were
   within NRC regulatory limits. According to the allegation, these gemstones
   were available to the public even though the last NRC license for distributing
   irradiated gemstones had been terminated.




                                                                                             vii
                                                                     October 1, 2008 – March 31, 2009
viii
NRC
NRC OIG SEEMIANNUAL
           MIA
           MIANNUAL REP
              NNUAL  EPORT
                     EPO
                       ORT
 OVERVIEW OF THE NRC AND THE OIG
NRC’S MISSION
NRC was formed in 1975, in accordance with the Energy Reorganization Act
of 1974, to regulate the various commercial and institutional uses of nuclear
materials. The agency succeeded the Atomic Energy
Commission, which previously had responsibility for
both developing and regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use
of byproduct, source, and special nuclear materials to
ensure adequate protection of public health and safety,
promote the common defense and security, and protect
the environment. NRC’s regulatory mission covers
three main areas:

• 	 Reactors - Commercial reactors that generate
    electric power and research and test reactors used for research, testing, and
    training.

• 	 Materials - Uses of nuclear materials in medical, industrial, and academic
    settings and facilities that produce nuclear fuel.

• 	 Waste - Transportation, storage, and disposal of nuclear materials and waste,
    and decommissioning of nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses
for nuclear facilities and users of nuclear materials, and (3) inspect facilities and
users of nuclear materials to ensure compliance with the requirements. These
regulatory functions relate both to nuclear power plants and other uses of nuclear
materials – like nuclear medicine programs at hospitals, academic activities at
educational institutions, research, and such industrial applications as gauges and
testing equipment.

The NRC maintains a current Web site and a public document room in Rockville,
Maryland (NRC headquarters), and holds public hearings, public meetings in local
areas and at NRC offices, and discussions with individuals and organizations.

                                                                                                  1
                                                                       October 1, 2008 – March 31, 2009
                   OIG HISTORY, MISSION, AND GOALS
                   Inspector General History

                   In the 1970s, Government scandals, oil shortages, and stories of corruption covered
                   by newspapers, television, and radio stations took a toll on the American public’s
                   faith in its Government. The U.S. Congress knew it had to take action to restore
                   the public’s trust. It had to increase oversight of Federal programs and opera-
                   tions. It had to create a mechanism to evaluate the effectiveness of Government
                   programs. And, it had to provide an independent voice for economy, efficiency,
                   and effectiveness within the Federal Government that would earn and maintain
                   the trust of the American people.

                   In response, President Jimmy Carter in 1978 signed into law the landmark legisla-
                   tion known as the Inspector General Act (IG Act). The IG Act created independent
                   Inspectors General (IG), who would protect the integrity of Government; improve
                   program efficiency and effectiveness; prevent and detect fraud, waste, and abuse
                   in Federal agencies; and keep agency heads, Congress, and the American people
                   fully and currently informed of the findings of IG work.

                   Today, the IG concept is a proven success. The IGs continue to deliver significant
                   benefits to our Nation. Thanks to IG audits and inspections, billions of dollars
                   have been returned to the Federal Government or have been better spent based
                   on recommendations identified through those audits and inspections. IG inves-
                   tigations have also contributed to the prosecution of thousands of wrongdoers.
                   In addition, the IG concept of good governance, accountability, and monetary
                   recoveries encourages foreign governments to seek our advice, with the goal of
                   replicating the basic IG principles in their own governments.

                   OIG Mission and Goals

                   NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance
                   with the 1988 amendment to the IG Act. NRC OIG’s mission is to (1) indepen-
                   dently and objectively conduct and supervise audits and investigations relating
                   to NRC programs and operations; (2) prevent and detect fraud, waste, and abuse;
                   and (3) promote economy, efficiency, and effectiveness in NRC programs and
                   operations.


2
NRC OIG Semiannual Report
OIG is committed to ensuring the integrity of NRC




                                                                                             Courtesy of CPNPP
programs and operations. Developing an effective
planning strategy is a critical aspect of accomplishing
this commitment. Such planning ensures that audit
and investigative resources are used effectively. To
that end, OIG developed a Strategic Plan that includes
the major challenges and critical risk areas facing
NRC.

The plan identifies the priorities of OIG and estab-
lishes a shared set of expectations regarding the goals
OIG expects to achieve and the strategies that will Comanche Peak Nuclear Power Plant
be employed to do so. OIG’s Strategic Plan features
three goals which generally align with NRC’s mission and goals:

1.	 Strengthen NRC’s efforts to protect public health and safety and the
    environment.

2.	 Enhance NRC’s efforts to increase security in response to an evolving
    threat environment.

3.	 Increase the economy, efficiency, and effectiveness with which NRC
    manages and exercises stewardship over its resources.




                                                                                         3
                                                              October 1, 2008 – March 31, 2009
OIG PROGRAMS AND ACTIVITIES
                   Audit Program

                   The OIG Audit Program focuses on the agency’s management and financial opera-
                   tions; economy or efficiency with which an organization, program, or function
                   is managed; and whether the programs achieve intended results. OIG auditors
                   assess the degree to which an organization complies with laws, regulations, and
                   internal policies in carrying out programs, and they test program effectiveness as
                   well as the accuracy and reliability of financial statements. The overall objective
                   of an audit is to identify ways to enhance agency operations and promote greater
                   economy and efficiency. Audits comprise four phases:

                   • 	 Survey phase - An initial phase of the audit process is used to gather informa-
                       tion, without detailed verification, on the agency’s organization, programs,
                       activities, and functions. An assessment of vulnerable areas determines whether
                       further review is needed.

                   • 	 Verification phase - Detailed information is obtained to verify findings and
                       support conclusions and recommendations.

                   • 	 Reporting phase - The auditors present the information, findings, conclusions,
                       and recommendations that are supported by the evidence gathered during the
                       survey and verification phases. Exit conferences are held with management
                       officials to obtain their views on issues in the draft audit report. Comments
                       from the exit conferences are presented in the published audit report, as
                       appropriate. Formal written comments are included in their entirety as an
                       appendix in the published audit report.

                   • 	 Resolution phase - Positive change results from the resolution process in
                       which management takes action to improve operations based on the recom-
                       mendations in the published audit report. Management actions are monitored
                       until final action is taken on all recommendations. When management and
                       OIG cannot agree on the actions needed to correct a problem identified in
                       an audit report, the issue can be taken to the Chairman for resolution.

                   Each September, OIG issues an Annual Plan that summarizes the audits planned
                   for the coming Fiscal Year (FY). Unanticipated high priority issues may arise that
                   generate audits not listed in the Annual Plan. OIG audit staff continually monitor
                   specific issues areas to strengthen OIG’s internal coordination and overall planning

4
NRC OIG Semiannual Report
process. Under the OIG Issue Area Monitor (IAM) program, staff designated as
IAMs are assigned responsibility for keeping abreast of major agency programs
and activities. The broad IAM areas address nuclear reactors, nuclear materials,
nuclear waste, international programs, security, information management, and
financial management and administrative programs.

INVESTIGATIVE PROGRAM
OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
NRC includes investigating possible violations of criminal statutes relating to NRC
programs and activities, investigating misconduct by NRC employees, interfacing
with the Department of Justice on OIG-related criminal matters, and coordinating
investigations and other OIG initiatives with Federal, State, and local investigative
agencies and other OIGs. Investigations may be initiated as a result of allegations
or referrals from private citizens; licensee employees; NRC employees; Congress;
other Federal, State, and local law enforcement agencies; OIG audits; the OIG
Hotline; and IG initiatives directed at areas bearing a high potential for fraud,
waste, and abuse.

Because NRC’s mission is to protect public health and safety, a major focus area
for the Investigation unit is investigations of alleged conduct by NRC staff that
could adversely impact the agency’s handling of matters related to health and
safety. These investigations may include allegations of:

• 	 Misconduct by high-ranking NRC officials and other NRC officials, such as
    managers and inspectors, whose positions directly impact public health and
    safety.

• 	 Failure by NRC management to ensure that health and safety matters are
    appropriately addressed.

• 	 Failure by NRC to appropriately transact nuclear regulation publicly and
    candidly and to openly seek and consider the public’s input during the regu-
    latory process.

• 	 Conflict of interest by NRC employees with NRC contractors and licensees
    involving such matters as promises of future employment for favorable or
    inappropriate treatment and the acceptance of gratuities.

                                                                                                  5
                                                                       October 1, 2008 – March 31, 2009
                   • 	 Fraud in the NRC procurement program involving contractors violating
                       Government contracting laws and rules.

                   OIG has also implemented a series of proactive initiatives designed to identify
                   specific high-risk areas that are most vulnerable to fraud, waste, and abuse. A
                   primary focus is electronic-related fraud in the business environment. OIG is
                   committed to improving the security of this constantly changing electronic busi-
                   ness environment by investigating unauthorized intrusions and computer-related
                   fraud, and by conducting computer forensic examinations. Other proactive initia-
                   tives focus on determining instances of procurement fraud, theft of property,
                   Government credit card abuse, and fraud in Federal programs.

                   GENERAL COUNSEL ACTIVITIES
                   Regulatory Review

                   Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG reviews
                   existing and proposed legislation, regulations, policy, and implementing Manage-
                   ment Directives (MD), and makes recommendations to the agency concerning their
                   impact on the economy and efficiency of agency programs and operations.

                   It is important to emphasize that OIG comments in regulatory review are an objec-
                   tive analysis of the language of proposed agency statutes, directives, regulations
                   and policies so as to identify vulnerabilities potentially resulting from these agency
                   documents. Regulatory review is intended to provide assistance and guidance to
                   the agency prior to the concurrence process so as to avoid formal implementa-
                   tion of potentially flawed documents. The OIG does not concur or object to the
                   agency actions reflected in the regulatory documents but rather offers comments
                   and requests responsive action within specified timeframes.

                   From October 1, 2008, through March 31, 2009, OIG reviewed more than 280
                   agency documents; including approximately 140 Commission papers (SECYs);
                   Staff Requirements Memoranda; and 140 Federal Register Notices, regulatory
                   actions, and statutes.

                   To effectively track the agency’s response to OIG regulatory review comments,
                   OIG requests written replies within 90 days, with either a substantive reply or
                   status of issues raised by OIG.

6
NRC OIG Semiannual Report
During this reporting period, the agency update of its Ethics Management Directives
was the focus of the most significant comments. These are summarized below:

Ethics Management Directives

The NRC General Counsel serves as the Designated Agency Ethics Official for
NRC and is responsible to provide advice and training to agency personnel on
ethics issues, pursuant to ethics statutes and regulations, principally the Ethics in
Government Act of 1978, Executive Order 12731, 5 U.S.C. Sections 7321-7326,
18 U.S.C. Sections 201-299, and 5 CFR Parts 2634-2641 and 5801. In fulfill-
ment of that obligation, the General Counsel updated and revised eight MDs
providing guidance to agency personnel on ethics and conflict of interest issues.
OIG comments on six of the MDs are summarized below:

	   MD 7.3 - Participation in Professional Organizations. This directive describes
    agency policies and provides guidance to employees on their personal involve-
    ment with professional organizations, as well as their actions on behalf of the
    agency. It prescribes procedures for obtaining approval to engage in certain
    activities related to professional organizations and relevant ethics requirements.
    Review of the revised directive indicated that the Inspector General needed
    to be added as an authority to designate OIG representatives to professional
    organizations.

	   MD 7.5 - Ethics Counseling and Training. The purpose of this reference is to
    inform NRC employees of the availability of ethics counseling and to describe
    the elements of the NRC ethics training program. It also relates the procedures
    for developing an annual written plan for NRC ethics training. Procedures
    for identifying those employees who require ethics training and for tracking
    attendance of the trainees. OIG comments on this directive suggested that
    the Inspector General be added as an authority to identify OIG employees
    who have responsibilities that make it desirable for them to receive annual
    oral ethics briefings.

	   MD 7.6 - Public and Confidential Financial Disclosure Reports. The objec-
    tive of this directive is to assist individuals who are required to file financial
    disclosure reports, to comply with the filing requirements. It describes the
    procedures for identifying filers and for distributing, collecting, reviewing, and
    maintaining custody of financial disclosure reports. Procedures are identified

                                                                                                   7
                                                                        October 1, 2008 – March 31, 2009
                       for use when remedial, administrative, or disciplinary actions are necessary
                       due to conflicts of interest. Review of this directive also revealed the need
                       for specific inclusion of the Inspector General as the designating authority
                       for OIG employees to file financial disclosure reports.

                   	   MD 7.7 - Security Ownership. Employees who are subject to the security
                       ownership restriction are identified in this directive. It also describes proce-
                       dures for obtaining Certificates of Divestiture and exemption from the security
                       ownership restriction. Procedures for certifying compliance with the security
                       ownership rules are enumerated as well as those for identifying entities that
                       are to be added to, or deleted from, the published list of prohibited securities.
                       In addition to adding the Inspector General as the authority for designation of
                       OIG employees subject to the stock restrictions, three employment categories
                       were specified in the commentary.

                   	   MD 7.8 - Outside Employment. The purpose of this directive is to inform
                       employees of outside employment that may be incompatible with their NRC
                       employment and when prior approval to engage in outside employment is
                       required. It also lists NRC officials who are authorized to grant approvals
                       necessary for employees to engage in certain outside employment. In our
                       comments, it was suggested that, in accord with practice, the Inspector General
                       should be documented as the authority to approve outside employment in
                       the case of OIG employees.

                   	   MD 7.9 - Ethics Approvals and Waivers. This directive addresses agency policy
                       that NRC employees receive approval or a waiver before engaging in certain
                       activities or accepting certain gifts or awards, in accordance with ethics statutes
                       or regulations promulgated by the Office of Government Ethics (OGE). The
                       directive describes NRC agency authority under OGE regulations to designate
                       individuals who can act upon requests for approvals or waivers and specifies
                       that all approvals or waivers must be in writing unless otherwise exempted
                       in the directive. Criteria are provided in the directive to assure that agency
                       officials use sound judgment in determining whether to grant a request for an
                       approval or a waiver as well as the basis for discretion to deny a request, when
                       warranted. The directive serves to inform employees when prior approval or
                       a waiver is required, and which NRC officials have been delegated authority
                       to grant the necessary approvals or waivers. The OIG comments focused on

8
                       IG authority over OIG employees and matters within its purview.


NRC OIG Semiannual Report
Also, the following comments were developed concerning two Management
Directives and a Commission Paper.

	   MD 1.1 - NRC Management Directives System. This directive is intended to
    ensure that management directives in the agency system effectively communicate
    policies, objectives, responsibilities, authorities, requirements, guidance, and
    information to NRC employees. During this reporting period, the Handbook
    section of the Directive was amended in response to a Recommendation in
    OIG’s “Audit of NRC Controls Over the Process for Eliminating Management
    Directives” (OIG-08-A-14). The amendment expanded the description of the
    MD elimination process. Follow up to this amendment confirmed response
    to OIG comments.

	   MD 3.16 - NRC Announcement Program. This directive is not yet published
    on the agency website, is intended to provide guidelines for use, approval,
    issuance and retention for agency-wide announcements, including urgent or
    time sensitive matters, issued under the NRC Announcement Program. It
    also provides guidelines and approval details for e-mail bulletins. Regulatory
    review comments identified the need for a provision for the approval of OIG
    related announcements by the Inspector General.

	   SECY Paper, “Deferral of Rulemaking: Expansion of National Source Tracking
    System (NSTS) (RIN 3150-A129). This document proposed to delay a final
    rule to include licensees who possess sealed sources containing greater
    than or equal to 1/10 of International Atomic Energy Agency, Category 3,
    thresholds. The OIG commented to convey concern that the proposal left
    an open-ended approach for continued study and analysis, which could
    unnecessarily delay finalization of the expansion rule. OIG provided two
    general observations related to the delay concern. The first is that the staff did
    not justify the need for additional study to adequately risk-inform the final
    rule. The second observation related that, although OIG agreed that the staff
    needs to closely observe data and systems performance of NSTS for Category
    1 and 2 sources and make adjustments to the implementation as warranted,
    the staff failed to explain why deferral of the rule is necessary to observe
    system performance. As a result, the OIG found that there is insufficient
    information to support the delay.

In addition, the agency provided responsive comments to five earlier issued
regulatory reviews and followed up with formal discussions on one of them.
                                                                                                   9
                                                                        October 1, 2008 – March 31, 2009
                   OIG ACTIVITIES
                   Support of the Inspector General Community in Training

                   The OIG General Counsel supported the Inspector General community in train-
                   ing and presentations. The Attorney General guidelines for statutory law enforce-
                   ment authority for 1811 special agents within the Inspector General commu-
                   nity include a requirement for periodic training on specified legal issues. The
                   Inspector General Criminal Investigator Academy was tasked with formulating
                   the syllabus for the training and identification of appropriate teaching staff. The
                   NRC OIG General Counsel was part of a group of attorneys from several Inspector
                   General offices who constructed a model three hour course and participated in
                   training a cadre of attorney-trainers. During this period, Ms. Grodin presented
                   this course in January in San Diego, California and in March in Charleston, South
                   Carolina, providing this mandatory training to almost 50 agents from more than
                   a dozen Federal agencies.

                   OTHER ACTIVITIES
                   NRC OIG Receives PCIE Awards for Excellence

                   In 2008, the President’s Council on Integrity and Efficiency and the Executive
                   Council on Integrity and Efficiency (PCIE/ECIE) awarded an OIG Audit team
                   and an OIG Investigations team the prestigious Award for Excellence.

                   • 	 The audit team was recognized for exceptional performance in identifying
                       weaknesses and recommending actions to improve Nuclear Regulatory
                       Commission activities in evaluating applications for renewal of oper-
                       ating licenses at the country’s commercial nuclear power plants. The team
                       consisted of Catherine A. Colleli, Jaclyn H. Storch, Michael T. Cash, and
                       Robert K. Wild.

                   • 	 The investigation team was recognized for exceptional dedication,
                       professionalism, and teamwork in investigating and reporting concerns
                       pertaining to Hemyc fire barriers. The team consisted of George A. Mulley,
                       Michael T. Cash, Rossana Raspa, and Thomas Barth.




10
NRC OIG Semiannual Report
PCIE Award for Excellence in Audit

Federal regulations limit commercial power reactor
licenses to an initial 40 year term but also permit
such licenses to be renewed. This original 40-year
term for reactor licenses was based on economic
and antitrust considerations – not on limitations
of nuclear technology. However, some structures
and components may have been engineered on
the basis of an expected 40-year service life. The
timely renewal of licenses for an additional 20 years,
as permitted, may be important to ensuring an
adequate energy supply for the United States during
the first half of the 21st century.
                                                         The Nuclear Safety Audit Team receives
To evaluate aging effects on nuclear plant systems,      its 2008 PCIE/ECIE Award for Excellence.
structures, and components, NRC has established a        Pictured left to right are Michael T. Cash,
license renewal process to assure safe plant opera-      Technical Advisor; Stephen D. Dingbaum,
tion for extended plant life. NRC permits licenses       Assistant Inspector General for Audits;
to be renewed if a licensee can demonstrate that         Jaclyn H. Storch, Senior Management
its aging management programs are adequate and           Analyst; Robert K. Wild, Audit Manager;
the plant can be safely operated for the extended        Catherine A. Colleli, Audit Manager;
term of the license. The audit team set out to deter-    Hubert T. Bell, Inspector General; and
mine the effectiveness of NRC’s license renewal          David C. Lee, Deputy Inspector General.
safety reviews that evaluate licensee applications
for extended periods of operation. Although NRC developed a comprehensive
process to evaluate applications for extended periods of operation, the audit team
identified several areas where improvements would significantly enhance program
operations.

The audit team’s work represented a significant contribution to protecting public
health, safety, and security by ensuring that the country’s commercial nuclear
power plants continue to operate safely.




                                                                                                11
                                                                        October 1, 2008 – March 31, 2009
                                                  PCIE Award for Excellence in Investigation

                                                  Hemyc is a fire barrier that has been installed in
                                                  operating nuclear power plants since the 1980s
                                                  and is currently installed at 15 nuclear reactors
                                                  in the United States. Recent concerns focused on
                                                  Hemyc’s failure to provide the level of protection
                                                  expected for a 1-hour rated fire barrier during
                                                  confirmatory testing sponsored by NRC in 2005.
                                                  Additional concerns pertained to whether NRC
                                                  staff was aware of problems with Hemyc prior to
                                                  2005 and whether the staff acted to address these
                                                  problems.
The Investigations Team receives its 2008         NRC requires fire barrier manufacturers to conduct
PCIE/ECIE Award for Excellence. Pictured          or sponsor tests that establish that their barriers
left to right are Joseph A. McMillan, Assistant   meet either a 1-hour or 3-hour rating period. These
Inspector General for Investigations; Michael     time durations indicate the number of hours a
T. Cash, Technical Advisor; Hubert T. Bell,       fire barrier protects electric cables needed to shut
Inspector General; Rossana Raspa, Senior          down a nuclear power plant in the event of a fire.
Level Assistant for Investigative Operations;     NRC does not conduct tests to qualify fire barriers
and David C. Lee, Deputy Inspector General.       for use in nuclear power plants but can conduct
Not pictured are Thomas M. Barth, Senior          confirmatory testing to identify potential problems
Criminal Investigator; and George A. Mulley,      with the barriers.
Jr., Senior Level Assistant for Investigative
Operations.                                          The OIG team learned that 11 years after NRC
                                                     approved Hemyc’s installation in nuclear power
                   plants, the agency in 1994 learned of problems with the material, which indicated
                   that Hemyc had a measured endurance period of less than half of the expected
                   1-hour endurance period. The OIG team found that NRC did not communicate
                   the results of the test to licensees, or conduct any follow-up to the test.

                   Further, the OIG team found that in November 1999, an NRC inspection identi-
                   fied potential problems with Hemyc fire barriers at the Shearon Harris Nuclear




12
NRC OIG Semiannual Report
Power Plant. Consequently, in August 2000, NRC concluded that the informa-
tion available from previous fire endurance tests proved inconclusive to qualify
Hemyc as a 1-hour fire rated barrier. However, the OIG team found that NRC
did not require licensees to take corrective action.

After August 2000, NRC initiated a program to perform NRC-sponsored confir-
matory testing of the Hemyc fire barriers. The testing, which was not completed
until 2005, resulted in a finding that the Hemyc fire barrier failed to perform for
1 hour as designed. However, the OIG team found that in April 2005, when NRC
published the results of the tests in an NRC information notice to the nuclear
industry, it did not require NRC licensees to take any action until a subsequent
bulletin was issued in 2006.

The OIG team also found that NRC also was not timely in fulfilling a commit-
ment to conduct assessments of all fire barriers used to protect electrical cables
in nuclear power plants and to identify improvements needed to have these fire
barriers meet NRC requirements made to Congress in March 1993 by a former
NRC Chairman in testimony to the U.S. House of Representatives (Subcommittee
on Oversight and Investigations).

This investigative work generated various results. Within several days of the
report’s issuance, the agency publicly agreed with the report’s findings and issued
a news release stating that staff were monitoring the Hemyc issue to ensure that
nuclear power plants properly protect their safety related systems against fires
and were reviewing the OIG report findings to determine how the agency could
improve its performance in the future. The report also generated concern from
Congress, and NRC responded with information on the various actions NRC
had taken to provide oversight of fire protection and demonstrate to the public
that it is being responsive and transparent.

The investigative team’s work represents a significant contribution to improving
NRC’s performance in enhancing the safety of nuclear power plants, and thereby
ensuring the safety and security of the American people.




                                                                                             13
                                                                     October 1, 2008 – March 31, 2009
                                              Barry R. Snyder Joint PCIE/ECIE Award

                                              The PCIE/ECIE also awarded members of the
                                              OIG Financial and Administrative Audit Team
                                              the prestigious Barry R. Snyder Joint PCIE/ECIE
                                              Award in recognition of their sustained contribu-
                                              tion to the Financial Statement Audit Network to
                                              positively improve Federal financial management.
                                              NRC OIG award recipients were Anthony C.
                                              Lipuma, Steven E. Zane, Kathleen M.Stetson,
                                              Rebecca J. Underhill, and Robert L. Woodward.



The Financial and Administrative Audit
Team receives its 2008 Barry R. Snyder
Award. Pictured left to right are
Anthony C. Lipuma, Deputy Assistant
Inspector General for Audits;
Robert L. Woodward, Senior Auditor;
Rebecca J. Underhill, Senior Auditor;
Stephen D. Dingbaum, Assistant Inspector
General for Audits; Steven E. Zane, Team
Leader; Hubert T. Bell, Inspector General;
Kathleen M. Stetson, Audit Manager;
and David C. Lee, Deputy Inspector General.




14
NRC OIG Semiannual Report
                            MANAGEMENT AND
                     PERFORMANCE CHALLENGES
                   Most Serious Management and Performance Challenges
                        Facing the Nuclear Regulatory Commission*
                                  as of September 30, 2008
                           (as identified by the Inspector General)

  Challenge 1	 Protection of nuclear material used for civilian purposes.

  Challenge 2	 Managing information to balance security with openness and accountability.

  Challenge 3	 Implementation of a risk-informed and performance-based regulatory approach.

  Challenge 4	 Ability to modify regulatory processes to meet a changing environment,
  	            to include the licensing of new nuclear facilities.

  Challenge 5	 Oversight of radiological waste.

  Challenge 6	 Implementation of information technology and information security measures.

  Challenge 7	 Administration of all aspects of financial management.

  Challenge 8	 Managing human capital.

  *The most serious management and performance challenges are not ranked in any order
  of importance.

The eight challenges contained in this report are distinct, yet interdependent relative to the
accomplishment of NRC’s mission. For example, the challenge of managing human capital
affects all other management and performance challenges.




                                                                                           15
                                                                   October 1, 2008 – March 31, 2009
AUDITS
                   To help the agency improve its effectiveness and efficiency during this period,
                   OIG completed 9 financial and performance audits or evaluations, 6 of which are
                   summarized here that resulted in numerous recommendations to NRC manage-
                   ment. OIG also analyzed 4 contract audit reports.

                   AUDIT SUMMARIES
                   Results of the Audit of the Nuclear Regulatory Commission’s Financial
                   Statements for Fiscal Year 2008

                   OIG Strategic Goal: Corporate Management

                   As required by the Chief Financial Officers Act of 1990, an audit of NRC’s prin-
                   cipal financial statements was conducted. In addition, the audit evaluated the
                   effectiveness of internal controls over financial reporting and the agency’s compli-
                   ance with laws and regulations.

                   Audit Results:

                   Financial Statements

                   • 	 The auditors expressed an unqualified opinion on the agency’s Fiscal Year
                       2008 financial statements.

                   Internal Controls

                   • 	 The auditors expressed an unqualified opinion on the agency’s internal
                       controls.

                   • 	 The auditors cited as a significant deficiency NRC’s lack of a business process
                       to record accounts payable and related accrued expenses in the general ledger
                       at the transaction level. NRC has implemented a new methodology to reduce
                       the risk of misstatements in the recorded balance for non-Federal accounts
                       payable; however, NRC has not fully documented its business processes and
                       policies related to this methodology. In addition, NRC has not established
                       historical relationships between the accrued accounts payable balances and
                       unliquidated obligations in order to corroborate the results of this process.



16
NRC OIG Semiannual Report
Compliance with Laws and Regulations

• 	 The auditors reported NRC’s lack of a completed certification and accreditation
    (C&A) for the License Fee Billing System (FEES) as a substantial noncom-
    pliance with the Federal Financial Management Improvement Act. NRC is
    currently reevaluating its process for modernizing its financial management
    systems and has delayed the timeline for replacing FEES. Management intends
    to complete the C&A for the system by the end of the second quarter of Fiscal
    Year 2009. (Addresses Management and Performance Challenge #7)

Audit of National Source Tracking System Information System
Development

OIG Strategic Goal: Security

The National Source Tracking System (NSTS) is an NRC initiative designed to
allow Agreement State1 and Federal Government agencies to track transactions
of specific types and quantities of radiological sealed sources.2 This will include
radiological sources held by the Department of Energy, and by NRC and Agree-
ment State licensees. Licensees are businesses and other organizations licensed to
possess radiological sources. Tracking capabilities will span the entire life cycle
of each source, from manufacture or import to receipt and transfer, ending with
export, decay, or burial.

NRC awarded a contract worth approximately $15 million in December 2005
for NSTS information system development, operational support, and mainte-
nance.

The audit objective was to evaluate the agency’s management of NSTS information
system development and assess delays in the development process.



1
  The Atomic Energy Act of 1954 allows NRC to delegate to State governments some authority to license
and regulate radiological materials. States that have signed formal regulatory agreements with NRC are
known as “Agreement States.”
2
  Radioactive material may be in the form of a sealed source, which is the term used to describe radioactive
material that is permanently sealed in a capsule or closely bonded in a solid form. This report refers to
radiological sealed sources as “radiological sources.”


                                                                                                                   17
                                                                                           October 1, 2008 – March 31, 2009
                   Audit Results:

                   NRC had planned to develop the NSTS information system so that licensees
                   could begin reporting radiological source data in November 2007.  However,
                   NRC’s contractor did not complete system development work on schedule. With
                   key system design issues unresolved, NRC modified the baseline contract to
                   increase funds for development tasks by approximately $2.8 million, an increase
                   of nearly 90 percent over the initial development task cost ceiling of $3.1 million.
                   In addition, NRC postponed system deployment to December 2008 and revised
                   the licensee reporting deadline to January 2009. System development delays
                   resulted from a lack of clear policies and procedures for review of key system
                   security documentation and for coordinating efforts among internal stakeholders.
                   Technological, organizational, and staffing issues were additional factors cited by
                   NRC staff. Agency officials have considered development of the NSTS information
                   system a top agency priority project for improving accountability of radiological
                   sources. However, delays in system development raise concerns about NRC’s
                   management of future information systems, particularly since NRC is planning
                   two systems to complement NSTS. (Addresses Management and Performance
                   Challenges #1, #2, and #6)

                   Audit of the Committee to Review Generic Requirements

                   OIG Strategic Goal: Safety

                   NRC established its Committee to Review Generic Requirements (CRGR) to
                   help ensure that generic backfits imposed on NRC-licensees are appropriately
                   justified based on NRC’s regulations and backfit policy. Simplified, a backfit is a
                   modification to a facility, or the procedures or organization required to operate the
                   facility, due to a new or amended NRC regulation, rule, or interpretation. NRC
                   considers backfitting as an inherent part of its regulatory process. According to
                   agency guidance documents, for sound and effective regulation it is important
                   that backfitting be conducted by a controlled and defined process.

                   In October 1981, the presiding NRC Chairman identified a need to better control
                   the number and nature of backfit requirements imposed by NRC on its licensees.
                   The Chairman further stipulated that a single, central point of control at NRC’s
                   highest operating level of management was needed, and in November 1981, NRC
                   established the CRGR as its central backfit control. The CRGR’s key implementing

18
NRC OIG Semiannual Report
procedure for conducting generic backfit reviews is its Charter. The CRGR’s
mission, as identified in the Charter, includes ensuring that unintended backfits
are not imposed or implied by proposed new or revised generic requirements
for NRC-licensed power reactors and nuclear materials facilities, and that NRC-
proposed actions are appropriately justified.

The objective of this audit was to determine if the CRGR adds value for the
Executive Director for Operations’ decisionmaking purposes and whether the
committee’s function is still needed.

Audit Results:

The CRGR no longer functions as originally intended with respect to generic
backfit reviews. Although NRC must still ensure that generic backfits are appro-
priately justified based on regulations and policy, the CRGR no longer performs
the central role in this process. This is because
the agency’s processes have evolved, which, in
                                                         CRGR Review Summary 2004-2008
effect, resulted in other offices assuming some
of the CRGR’s duties. However, the agency has                                7
not developed overarching, agencywide guid-               04-05                                    26
ance that describes its current backfit review                                   10
process or reassessed what, if any, role the CRGR
should play in the current process. As a result,                               9
                                                          05-06                                            34
                                                        (June 1- May 31)




the CRGR does not add its full intended value
as originally envisioned for backfit review.                                      11
                                                              Years




Furthermore, external stakeholders do not
                                                                           5
understand the CRGR’s involvement in the                  06-07                            18
agency’s backfit review process and expressed                            4
confusion on how NRC backfit decisions are
made. Without reassessing and documenting                               3
its current internal backfit review process,              07-08                                21
the agency cannot be assured that it is taking                       1
consistent or appropriate action with regard to                           Items Reviewed
backfit reviews and is taking the necessary steps           Formal Review      Informal/Waived    Deferred
to prevent unnecessary regulatory burden on
NRC licensees. (Addresses Management and
Performance Challenges #2 and #4)

                                                                                                       19
                                                                            October 1, 2008 – March 31, 2009
                   Audit of NRC’s Occupant Emergency Program

                   OIG Strategic Goal: Security

                   An Occupant Emergency Program (OEP) is defined as, “a short-term emer-
                   gency response program [that] establishes procedures for safeguarding lives and
                   property during emergencies.” A fundamental part of an OEP is an occupant
                   emergency plan containing a set of procedures to protect life and property in a
                   specific Federally occupied space under defined emergency conditions. Federal
                   management regulations require every facility owned or leased by the Federal
                   Government to have an occupant emergency plan. These regulations contain
                   detailed information on how the plan should be developed and implement-
                   ed. NRC Management Directive 10.130, Safety and Health Program Under the
                   Occupational Safety and Health Act, provides criteria for developing and imple-
                   menting individualized occupant emergency plans for each of the NRC-owned
                   or leased buildings.

                   The audit objective was to evaluate the extent to which the agency’s Occupant
                   Emergency Program complies with Federal regulations and standards.

                   Audit Results:

                   Although NRC’s OEP meets Federal requirements and standards, weaknesses
                   pertaining to the implementation of the OEP were identified relating to staff
                   awareness, emergency equipment, and signage.

                   Staff Lacks Awareness of Emergency Procedures

                   NRC has not adequately prepared its employees for emergencies, thereby poten-
                   tially endangering staff safety and well-being. An OIG survey found that many
                   NRC staff was unaware of what to do in an emergency. For example, approxi-
                   mately one-third of employees surveyed had not read their building’s occupant
                   emergency plan and did not know the location of their designated assembly area
                   or who to report to upon arrival at the designated spot. In addition, more than
                   one-third of surveyed employees who have assigned duties during an emergency
                   (e.g., floor monitors, stairwell monitors) had not been trained on those duties.
                   Staff are unfamiliar with procedures and untrained on duties because NRC has
                   not provided staff with training on emergency procedures or conducted full-

20
NRC OIG Semiannual Report
scale, annual evacuation drills. The last full-scale evacuation drill was held in
October 2004. In the intervening period, more than 1,500 new staff have been
hired and several office moves have occurred. As a result, NRC staff and other
building occupants may not know how to respond appropriately during an emer-
gency, thereby putting their safety and that of their colleagues at risk.

Emergency Equipment Is Inadequate and Poorly Maintained

Federal agencies have published guidelines governing the placement and mainte-
nance of lifesaving equipment such as Automatic External Defibrillators (AEDs)
and Personal Emergency
Kits (PEKs) for staff use
                               Headquarters Occupant Emergency Plan Survey
during an emergency.
                                                  Percentage based on 159 employees surveyed
NRC’s AED program is
inadequate, and agency                                               0 10 20 30 40 50 60 70 80
PEKs are inconsistently
                                                Have not read plan
distributed and some
contents are outdated.                           Do not know NRC
Some of the agency’s                          emergency number
AEDs and PEKs may not                       Do not know location
                                                  of assembly area
be adequate because the
agency does not require            Do not know who to report to
                                                  at assembly area
that such equipment be
                                      Do not know out-of-office
routinely maintained or                    emergency procedures
take into consideration in-
                             Results of survey regarding staff awareness of headquarters occupant emergency plans
dustry best practices for
emergency equipment.
Without conducting routine maintenance or consistently issuing emergency
equipment, NRC lacks assurance that lifesaving emergency equipment will be
available and ready to use when needed.

Signage in the White Flint Complex Is Inadequate and Inconsistent

While the agency has posted signage denoting exit routes, some of the signage
does not meet Federal guidelines and industry standards. Specifically, current
signage, including evacuation maps and stairwell routing in the White Flint com-
plex, is inadequate and inconsistently designed and posted. These deficiencies


                                                                                                        21
                                                                             October 1, 2008 – March 31, 2009
                          exist because management was unfamiliar with applicable guidance and stan-
                          dards. Without upgrading existing signage to meet Federal guidance and industry
                          standards, NRC staff in the White Flint complex may be unable to evacuate the
                          complex safely and expediently during an emergency. (Addresses Management
                          and Performance Challenge #8)

                          Audit of NRC’s Agreement State Program

                          OIG Strategic Goal: Safety

                           In accordance with section 274 of the Atomic Energy Act, as amended, NRC may
                           relinquish its authority to regulate byproduct, source, and limited quantities of
                           special nuclear material to States (Agreement materials). These States must first
                                                                                demonstrate that their regula-
                                Agreement States                                tory programs are adequate to
        WA                                                           NH ME
                                                                                protect public health and safety
                         MT        ND                              VT           and compatible with NRC’s
     OR                                   MN
               ID                  SD           WI
                                                                          MA    program. States that have entered
                                                     MI           NY
                          WY                                                 RI into an agreement assuming this
          NV                       NE**
                                           IA
                                                         OH
                                                               PA      CT
                                                                       NJ       regulatory authority from NRC
   CA
                    UT
                            CO
                                                 IL IN
                                                            WV VA
                                                                       DE       are called Agreement States.
                                     KS      MO
                                                       KY             MD
                                                                       DC*
                                                                                There are currently 35 Agree-
                                                                NC
               AZ**                   OK
                                                      TN
                                                                                ment States.
                          NM**              AR                 SC
                                                 MS AL    GA
                                   TX       LA                                          NRC has programmatic respon-
                                                                                        sibility to periodically review the
                                                                            FL
     AK
                      HI                                                                actions of the Agreement States
                                                                                        to comply with the requirements
                                                         Agreement States (35)
                                                         NRC States (12)
                                                                                        of the Atomic Energy Act. NRC’s
                                                         NRC States that have expressed policy is to evaluate Agreement
                                                         intent to sign Agreement (3)   State radiation control programs
Source: Information depicted based on NRC Web site as of September 9, 2008.             using performance indicators
                                                                                        to ensure that public health
                               and safety is being adequately protected and that Agreement State programs are
                               compatible with NRC’s program. In order to accomplish this task, NRC peri-
                               odically reviews Agreement States using the Integrated Materials Performance
                               Evaluation Program (IMPEP).


22
NRC OIG Semiannual Report
The audit objective was to assess NRC’s oversight of the adequacy and effective-
ness of Agreement State programs. The OIG focused its review on the IMPEP
process as well as other elements of the Agreement State program.

Audit Results:

The purpose of the Agreement State program is to ensure the adequate protec-
tion of public health and safety in the uses of Agreement materials.3 Although
NRC maintains oversight of Agreement States, there are program adequacy and
effectiveness issues that require management’s attention. Specifically,

NRC does not effectively monitor IMPEP operational issues

• 	 Agreement State program managers are unaware of several operational issues
    to include a lack of underlying cause analysis during IMPEP reviews and in
    reports, inconsistent use of the pre-IMPEP questionnaire, IMPEP team leaders
    unprepared to conduct reviews, and lack of awareness of associated guidance
    by selected IMPEP State team members and/or NRC staff accompanying staff
    inspectors. This condition exists because there is no systematic mechanism
    for conducting self-assessments and capturing lessons learned for IMPEP.
    Consequently, IMPEP may not be as effective as it could be for assessing the
    adequacy and compatibility of Agreement State programs.

NRC could be challenged to re-exert authority over an Agreement State
program in the event of an emergency

• 	 Under the Atomic Energy Act, NRC can temporarily suspend its agreement
    with a State during an emergency situation. However, NRC has not identified
    all of the information necessary for re-exerting authority and lacks the formal
    procedural guidance about what information is needed about Agreement State
    programs and materials licensees. Without this valuable planning information
    and lack of access to certain programs and materials licensee information,
    NRC could lose oversight and awareness of licensees and materials.



3
    Byproduct, source, and limited quantities of special nuclear materials regulated by an Agreement State.



                                                                                                                   23
                                                                                           October 1, 2008 – March 31, 2009
                   NRC lacks standardization in communications with, and collection of, infor-
                   mation from the Agreement States

                   • 	 NRC lacks (1) standardization in communication procedures, and (2) a stan-
                       dardized data collection process that can be used as a basis for developing a
                       national information sharing tool. As a result, some States may be unaware
                       of important issues, and NRC does not have a full and accurate picture of
                       Agreement State regulatory activities.

                   Weaknesses exist in NRC’s review of Agreement State event reporting

                   • 	 NRC’s reviews of whether an Agreement State has appropriately reported all
                       events to the Nuclear Material Events Database (NMED) may not be consis-
                       tently performed because NRC’s IMPEP reviews do not require an analysis of
                       unreported events to determine whether such events are being appropriately
                       identified for and included in NMED. Consequently, NRC and the public
                       may have an inaccurate accounting of material events in some States, which
                       could also hamper events data trend analysis efforts. (Addresses Management
                       and Performance Challenges #1, #2, #3, and #4)

                   Audit of NRC’s Warehouse Operations

                   OIG Strategic Goal: Corporate Management

                   NRC maintains two warehouses, referred to as the main warehouse and the annex,
                   located about a mile away from the agency’s main headquarters buildings. These
                   warehouses are used to receive, store, and deliver property, equipment, and supplies
                   needed for NRC operations. The main warehouse also contains a security lockup
                   cage used to store sensitive property (e.g., laptop computers, cell phones). As of
                   February 2009, the two warehouses contained almost 16,000 pieces of property
                   and equipment with an initial acquisition cost of approximately $5.1 million.

                   The purpose of this audit was to determine whether NRC has established and
                   implemented an effective system of internal controls for maintaining account-
                   ability and control of agency property stored in the warehouses.




24
NRC OIG Semiannual Report
Audit Results:

NRC’s warehouse operations support the agency’s mission by ensuring that prop-
erty is received, stored, and delivered to NRC staff as needed. The warehouse also
provides logistical support for office moves and assistance with special events.
The OIG audit determined opportunities exist to (1) enhance safety and secu-
rity, (2) increase inventory accuracy and operational efficiency, and (3) improve
contract administration.

Safety and Security Evaluations Not Conducted and Segregation of Duties
Not Implemented

Federal law and guidance require that NRC evaluate the safety and security of
its facilities and use sound physical security practices to protect agency property.
However, NRC has not conducted the required peri-
odic safety inspections of the NRC main warehouse
and annex or a required security assessment of the
NRC annex. Additionally, despite internal control
standards that require segregation of duties, ware-
house staff, responsible for the day-to-day operation
of the agency’s warehouses, also control and monitor
the video surveillance system located at the main
warehouse. Management inattention to the required
safety inspections and security assessment as well
as the failure to implement segregation of duties,
leaves NRC staff potentially vulnerable to workplace
                                                          Security lockup cage within the main
hazards, while exposing NRC to a heightened risk
                                                          NRC warehouse
of property loss.

SPMS Contains Incomplete and Inaccurate Location Information

Property management system guidance and internal control standards require
agency personnel to record information accurately and timely to maintain account-
ability and control over Government property. Despite these requirements, NRC’s
official Space and Property Management System (SPMS), contains incomplete
and inaccurate location information. This condition exists because SPMS’s full
capability is not being used, property locations are changed in SPMS prior to
actual property movement, and periodic SPMS monitoring measures have not
been implemented.
                                                                                             25
                                                                     October 1, 2008 – March 31, 2009
                   Incomplete and inaccurate location information results in inefficient, duplicative
                   work efforts, heightens the risk for lost property and information, and may result
                   in unnecessary expense.

                   Contract Administration Deficiencies

                   NRC is required to administer the contract for warehouse support services in
                   accordance with agency policy and the contract provisions. However, the following
                   contract administration deficiencies exist:

                   • 	 Incomplete contractor security packages are submitted to the Division of
                       Facilities and Security.

                   • 	 Registration procedures are not followed for unbadged contractor
                       representatives.

                   • 	 Contractor performance is not measured.

                   OIG determined that NRC warehouse employees did not administer the ware-
                   house contract in accordance with agency policy and the contract provisions.
                   As a result, NRC lacks assurance that contractors working at NRC facilities do
                   not pose a security risk. In addition, NRC may be paying excess contract costs
                   because agency staff did not measure contractor performance; therefore, records
                   do not exist for the agency to disallow contract costs. (Addresses Management
                   and Performance Challenge #7)

                   AUDITS IN PROGRESS
                   Survey of NRC’s Safety Culture and Climate

                   OIG Strategic Goal: Corporate Management

                   OIG performed surveys in 1998, 2002, and 2006 that assessed the organiza-
                   tional safety culture and climate of the agency’s workforce and identified agency
                   strengths and opportunities for improvement. In response to the survey results,
                   the agency evaluated the key areas for improvement and implemented strategies
                   for addressing them.

                   A clear understanding of NRC’s current safety culture and climate will

26                 facilitate identification of agency strengths and opportunities as it meets

NRC OIG Semiannual Report
significant challenges. These challenges include the 2008 surge in license applica-
tions for new commercial nuclear power reactors in the United States, disposal of
high-level radioactive waste storage issues, and provision of adequate workspace
and related facilities for a growing workforce.

The survey objectives are to (1) measure NRC’s safety culture and climate to
identify areas of strength and opportunities for improvement; (2) compare the
results of this survey against the survey results that OIG reported previously;
and (3) provide, where practical, benchmarks for the qualitative and quantitative
findings against other similar organizations. (Addresses all of the Management
and Performance Challenges)

Audit of NRC’s Construction Oversight at Nuclear Reactor Facilities

OIG Strategic Goal: Safety

In the 1970s and 1980s, a number of nuclear power plant construction projects
in the United States were stopped with the plants partially built—some of these
plants were never finished. During this time period, Congress directed NRC to
study existing and alternative programs for improving the assurance of quality in
the design and construction of commercial nuclear power plants. In response,
NRC conducted a review and issued NUREG-1055, Improving Quality and the
Assurance of Quality in the Design and Construction of Nuclear Power Plants,
in 1984. The study recommended a number of improvements in industry and
NRC programs.

The nuclear industry is on the verge of potentially constructing new nuclear power
plants; but, it has been decades since industry and NRC have been involved in the
design and construction of such plants. Reactors are currently under construction
around the world, including some with designs like those planned in the United
States. However, there are reported problems with the quality assurance during
construction at these plants, for example, in Finland and France. As a result,
OIG will review the lessons learned from United States experience as captured in
NUREG-1055 and other historical records as well as the experience at ongoing
construction projects in the foreign market.

The audit objective is to determine if and how NRC is incorporating and using
the domestic and foreign lessons learned in its construction oversight programs.

                                                                                             27
(Addresses Management and Performance Challenges #3 and #4)


                                                                     October 1, 2008 – March 31, 2009
                   Audit of NRC’s Quality Assurance Planning for New Reactors

                   OIG Strategic Goal: Safety

                   Chapter 10, Part 50, of the Code of Federal Regulations (10 CFR 50) requires every
                   applicant for a construction permit to include in its preliminary safety analysis
                   report a description of the quality assurance program to be applied to the design,
                   fabrication, construction, and testing of the structures, systems, and components
                   of the facility. This quality assurance program includes the managerial and admin-
                   istrative controls to be used to assure safe operation. These requirements also
                   apply to holders of combined licenses issued under 10 CFR 52.

                   As part of its regulatory responsibilities, NRC reviews and evaluates the description
                   of the quality assurance program for the design and construction phases in each
                   application for a construction permit, a manufacturing license, or a standard-
                   ized design approval. Prior to docketing a construction permit application, the
                   NRC performs a substantive review of the applicant’s quality assurance program
                   description relative to ongoing design and procurement activities. This review
                   and an associated inspection is performed immediately after tendering of the
                   application to determine that a satisfactory quality assurance program has been
                   established and is being implemented. However, an applicant’s quality assurance
                   program is not re-reviewed except for conformance to positions developed during
                   the course of the NRC staff technical review.

                   The audit objective is to determine the extent to which NRC provides oversight
                   of applicant new reactor quality assurance programs. (Addresses Management
                   and Performance Challenges #2, #3, and #4)

                   Audit of Security Measures for Special Nuclear Materials

                   OIG Strategic Goal: Security

                   The Office of Nuclear Material Safety and Safeguards (NMSS) plans, coordinates,
                   and manages the development and implementation of policies and programs
                   for special nuclear material (SNM) security by conducting Material Control and
                   Accounting (MC&A) inspections at fuel cycle facilities throughout the year. The
                   primary goal of the MC&A inspection program is to ensure that the licensee’s
                   MC&A system adequately detects and protects against the loss, theft, or diversion of

28
                   SNM that the licensee is authorized to possess, store, and utilize at its facility.


NRC OIG Semiannual Report
The Office of Nuclear Security and Incident Response (NSIR) manages the overall
development and implementation of policies and programs for physical security
at fuel cycle facilities. NSIR also manages contingency planning and emergency
response activities for safeguards events at fuel cycle facilities and assesses fuel
cycle facility security reports. Additionally, the staff provides oversight of the
licensee’s fuel cycle security inspection programs.

Over the past several years the responsibility for security inspections of fuel cycle
facilities has been moved between NMSS and NSIR numerous times. Currently,
NMSS’ MC&A Branch and NSIR’s Fuel Cycle Safeguards and Security Branch
share inspection responsibilities for fuel cycle facilities.

The audit objective is to assess the effectiveness of NRC’s inspection program to
ensure the physical protection and accountability of SNM at fuel cycle facilities.
(Addresses Management and Performance Challenges #1 and #3)

Audit of the Force-on-Force Program

OIG Strategic Goal: Security

NSIR has the responsibility for assessing the development and implementation
of security programs at various U.S. nuclear facilities, including nuclear power
plants. To assess security programs at nuclear power plants, NSIR performs
force-on-force exercises at each plant on a triennial basis in accordance with
agency regulations. The exercises take approximately 2 weeks to complete; the
first week is used for exercise preparation and design and the second week is used
to execute and evaluate the exercise.

Force-on-force exercises are designed to test various elements of a facility’s security
program to determine if the facility’s security program is capable of defeating a
terrorist attack. To ensure a rigorous and thorough exercise, NSIR uses contractor
support in the design and implementation of the exercise. To successfully pass
a force-on-force exercise, a nuclear facility must defeat an attack on the plant in
two of three exercise drills. At the conclusion of each drill, NRC evaluates the
licensee’s security program response and security force and assigns a pass, fail, or
indeterminate finding. At the close of the exercise, NRC staff provide a debrief
to the licensee to discuss how each exercise was evaluated and any subsequent
findings.

                                                                                                 29
                                                                         October 1, 2008 – March 31, 2009
                   The audit objective will be to evaluate the agency’s force-on-force program to
                   determine if the design and application of the program is consistent, thorough,
                   reasonable, and in accordance with NRC regulations. (Addresses Management
                   and Performance Challenges #1 and #2)

                   Audit of the Regional Counsel Role in the Enforcement Process

                   OIG Strategic Goal: Safety

                   NRC is authorized to enforce its regulatory requirements by imposing sanctions
                   against licensees who violate those requirements. The agency’s enforcement
                   program is directed by the Office of Enforcement (OE) in headquarters, but is
                   implemented primarily in the regional offices, where staff conduct inspections
                   and investigations of licensees to identify violations and assess their significance
                   so that appropriate enforcement actions can be determined. Less significant
                   (non-escalated) violations may be addressed entirely at the regional office level,
                   while more significant (escalated) violations are addressed through a collaborative
                   process involving OE, the Office of the General Counsel, and other headquarters
                   offices as well as the regional offices.

                   In three of NRC’s four regional offices, a dedicated enforcement staff supervisor
                   oversees the work of the regional enforcement staff. In Region II, however, the
                   Regional Counsel serves both as the region’s attorney and as the enforcement
                   staff supervisor. As enforcement supervisor, this individual is to ensure that the
                   region adheres to the agency’s enforcement policy, oversees the preparation of
                   escalated enforcement packages, and performs other enforcement related tasks.
                   As regional counsel, this individual provides legal advice to the region, including
                   advice on the legal sufficiency of escalated enforcement packages. This audit
                   report refers to Region II’s arrangement as the “dual role” approach.

                   A recent OIG audit found that differences in the ways the regional offices imple-
                   ment the enforcement program can significantly impact the enforcement process,
                   leaving enforcement decisions vulnerable to challenge and potentially compro-
                   mising public confidence in NRC’s enforcement program.

                   The audit objective was to determine whether combining the roles of regional
                   counsel and enforcement supervisor is a workable approach for regional enforcement
                   programs. (Addresses Management and Performance Challenges #1 and #3)

30
NRC OIG Semiannual Report
                                                          INVESTIGATIONS
During this reporting period, OIG received 84 allegations, initiated 24 investigations,
and closed 14 cases. In addition, the OIG made 22 referrals to NRC management,
5 to the Department of Justice, and 2 to State authorities.

INVESTIGATIVE CASE SUMMARIES
Check Scam Involving the NRC

OIG Strategic Goal: Corporate Management

OIG completed an investigation into an allegation by a New Jersey resident
concerning a counterfeit check that appeared to come from the NRC, which the
resident received for items sold over the Internet.

OIG identified a total of eight public citizens throughout the United States who
sold items over the Internet and received counterfeit checks that appeared to
come from NRC. Printed on each of the counterfeit checks was the NRC accounts
receivable account number and payment address that were published on NRC’s
Web site to inform licensees where to send their license payments. Each check
was made out for more than the cost of the item being sold on the Internet. Each
seller received instructions via e-mail to cash the check, keep money for the item
sold as well some additional money for themselves, and return the balance via
wire transfer. The e-mail instructions were generated from Nigeria.

OIG determined that two of the individuals who received counterfeit NRC checks
were instructed to wire the money to an address in Los Angeles, California. OIG
found that the woman who lived at the California address, and her brother, were
hired by an individual they “met” online to manufacture checks for and transfer
money to an alleged textile company in Nigeria. OIG learned that both the
woman and her brother claimed that between September 2007 and August 2008,
they manufactured 500 to 2,500 checks a month and collected approximately
$150,000 in wired payments. After keeping $20,000 for themselves, they sent
the remaining money to Nigeria.

OIG also determined that the check scheme did not involve any NRC personnel
and that there was no loss to the NRC from the check scheme. OIG provided
information concerning the check scheme to agency staff, who, in turn, removed


                                                                                                 31
                                                                         October 1, 2008 – March 31, 2009
                   the NRC accounts receivable account number from the NRC’s Web site. Details
                   of the check scheme were provided to the U.S. Secret Service for investigation.
                   (Addresses Management and Performance Challenge #7)

                   NRC Contractor Violates False Claims Act

                   OIG Strategic Goal: Corporate Management

                   OIG completed an investigation involving an NRC contractor, Science Applica-
                   tions International Corporation (SAIC), that violated the False Claims Act, Title
                   31, United States Code Section 3729.  On October 7, 2008, the U.S. District Court
                   jury ordered SAIC to pay $6.49 million in damages to the NRC.

                   OIG found that in 1992 and 1999, the NRC awarded two contracts to SAIC to
                   provide the agency with technical assistance on the development of a rule that
                   would allow for the recycling and reuse of slightly radioactive material, primarily
                   contaminated metals. In 1992, SAIC was responsible for assisting NRC establish
                   scientific standards governing the reuse of such material and was to present an
                   options paper outlining the possible approaches to rulemaking for the release of
                   these materials. The goal of the 1999 contract was to assess regulatory alternatives
                   regarding the release of reusable materials. As part of both contract requirements,
                   SAIC certified to NRC that SAIC did not have any conflicts of interest; however,
                   a private citizen reported that SAIC did have conflicts of interest related to the
                   rulemaking for release of reusable materials. OIG investigation determined that
                   SAIC breached its organizational conflict-of-interest obligations under both NRC
                   contracts by engaging in relationships with organizations, including the Associa-
                   tion of Radioactive Metal Recyclers (ARMR), whose aim was to advocate in favor
                   of recycling and reusing radioactive materials. By concealing these relationships
                   SAIC stood to benefit from the NRC rule. The OIG investigation concluded that
                   SAIC violated the False Claims Act and breached the contract requirements with
                   the NRC by not disclosing these relationships.

                   The SAIC investigation was presented to the U.S. Department of Justice, which,
                   assisted by the NRC Office of General Counsel, filed a civil complaint in the
                   U.S. District Court. As a result of a Federal trial, a jury found that SAIC violated
                   the False Claims Act and awarded the United States $6.49 million under the
                   False Claims Act for 77 false claims and statements, damages, and civil penalties.  
                   (Addresses Management and Performance Challenges #1 and #5)

32
NRC OIG Semiannual Report
NMSS Staff Not Properly Reviewing MOX Fuel Fabrication Facility
License Application

OIG Strategic Goal: Safety

OIG conducted an investigation into an allegation made by a former NRC staff
member who claimed that NRC management ignored safety concerns regarding
a license application for a Mixed Oxide (MOX) Fuel Fabrication Facility in Aiken,
South Carolina. The former NRC staff member was involved in reviewing
chemical engineering aspects of the MOX license application. The former staff
member alleged that NRC management did not ask the license applicant to clarify
safety significant portions of its application.

OIG learned that the former staff member forwarded 95 concerns to his manage-
ment as part of the review of the MOX license application and thought those
concerns should have been given to the license applicant immediately. However,
OIG learned that, in accordance with NRC’s license review process, the MOX
chemical engineering review team reviewed all of these concerns. Based on this
review, the team determined some concerns were not applicable to the chemical
engineering review, sent some to teams reviewing other issues, and included some
in the chemical engineering request for additional information (RAIs) that were
sent to the license applicant.

As background, RAIs are questions that NRC staff present to a license applicant
to obtain additional information so a complete review of the application can be
finalized. NRC staff consolidate RAIs to the extent practicable to avoid burden-
some multiple submissions to applicants. OIG determined that NRC has a specific
process in place to review concerns and is using this process for the MOX review.
In accordance with this process, NRC staff assesses concerns raised and, if appro-
priate, submits them as RAIs to the license applicant. OIG also determined that
in March 2009, NRC requested the license applicant to respond to the RAIs so
that the staff could complete its review of the chemical process safety aspects of
the MOX facility. (Addresses Management and Performance Challenge #1)




                                                                                             33
                                                                     October 1, 2008 – March 31, 2009
                   Terminated NRC License for Distribution of Irradiated Gemstones

                   OIG Strategic Goal: Safety

                   OIG completed an investigation into a 2007 allegation that there were irradiated
                   gemstones, not regulated by NRC, widely available in the United States and that
                   NRC did not know whether the gemstone radioactivity levels were within NRC-
                   regulatory limits. According to the allegation, these gemstones were available to
                   the public even through the last NRC license for distributing irradiated gemstones
                   had been terminated.

                   As background, NRC began regulating the distribution of irradiated gemstones
                   during the 1980s. Irradiated gemstones fall under NRC’s regulatory jurisdiction
                   because the process of enhancing the stones’ color can make the gems radioactive.
                   NRC requires that the initial distribution of these stones be by an NRC-licensed
                   distributor. After initial distribution, the stones do not need to be regulated and
                   subsequent distributors do not need to be licensed. NRC issues distribution
                   licenses to companies licensed for initial distribution of irradiated gemstones.
                   These licenses are issued for 10 years, at which point licensees have the option
                   to renew.

                   NRC reviewed the allegation and confirmed that companies were purchasing
                   irradiated gemstones from suppliers and selling the irradiated gemstones in the
                   United States without exempt distribution licenses. NRC also conducted inspec-
                   tions of gemstone vendors and distributors, which found gemstone radioactivity
                   levels within regulatory limits.

                   OIG learned that NRC issued approximately five distribution licenses to companies
                   during the late 1980s, but by December 2001, due to changes in the marketplace
                   and less consumer interest in irradiated gemstones, these licensees had terminated
                   their licenses. The last entity to terminate its exempt distribution license was the
                   University of Missouri Research Reactor Center (MURR). However, MURR had
                   a separate NRC license, which allowed it to continue to irradiate gemstones. This
                   license also allowed MURR to transfer the gemstones to another NRC licensee.
                   Thus, MURR continued to irradiate gemstones, but entered into a contractual
                   arrangement with another NRC licensee that could receive the irradiated gemstones



34
NRC OIG Semiannual Report
from MURR. Under the contract, after the gemstones were irradiated at MURR,
they would be held in a storage facility until the radioactivity levels were consid-
ered low enough to ship the gemstones to the contracted licensee, which would
then export the gemstones outside of the United States.

OIG determined that after MURR terminated its exempt distribution license,
the distribution of irradiated gemstones was unregulated for approximately
5 years—from December 2001 to mid-2007.  During this time, irradiated gemstones
were widely available in the United States marketplace without NRC regulatory
oversight. This situation occurred because the last licensee terminated its license
and this went unnoticed by NRC management. However, NRC has taken steps to
regain control over this industry by requiring licensees to provide an annual report
detailing the type, quantity, and radioactivity levels of irradiated gemstones they
distribute. Also, NRC has written procedures in place requiring staff to contact
a licensee who requests to terminate a license to determine why the licensee is no
longer interested in holding a license and to alert agency management if, in the
future, a last exempt distribution license is terminated. (Addresses Management
and Performance Challenge #4)




                                                                                              35
                                                                      October 1, 2008 – March 31, 2009
STATISTICAL SUMMARY OF
OIG ACCOMPLISHMENTS
        INVESTIGATIVE STATISTICS
        Source of Allegations — October 1, 2008, through March 31, 2009

                                     NRC Employee                                            19
                                  NRC Management                           6
                       Other Government Agency                   2
                                           Intervenor                      6
                                      General Public                                 16
                             OIG Investigation/Audit                            10
                                 Regulated Industry                   3
                                        Anonymous                                            19
                                      Congressional          1
                                                Media 0
                                          Contractor         2

                       Allegations resulting from Hotline calls: 35                       Total: 84


        Disposition of Allegations — October 1, 2008, through March 31, 2009

                                                 Total                                         84
                             Closed Administratively                       27
                     Referred for OIG Investigation                       25
            Referred to NRC Management and Staff                          22
                      Referred to External Agency 0
                            Pending Review or Action         5
                       Correlated to Existing Case           5

36
NRC OIG Semiannual Report
Status of Investigations

DOJ Referrals....................................................................................................... 5
DOJ Pending........................................................................................................ 0
DOJ Declinations (one from a another period).............................................. 6
Arrest.................................................................................................................... 1
NRC Administrative Actions:
	 Terminations and Resignations.................................................................. 0
	 Suspensions and Demotions....................................................................... 1
	 Counseling..................................................................................................... 6
	 Recoveries......................................................................................$6,499,097
State Referrals...................................................................................................... 2
State Accepted...................................................................................................... 2


Summary of Investigations
Classification of 		           Opened 	 Closed 	 Cases In
Investigations	     Carryover	 Cases	   Cases	 Progress

Conflict of Interest	                      1	                                        0	               0	               1
External Fraud	                            4	                                        1	               2	               3
	False Statements	                         1	                                        1	               1	               1
 	Misuse of Government Property	           2	                                        1	               2	               1
  	Employee Misconduct	                    7	                                        6	               2	              11
   	Management Misconduct	                 1	                                        3	               0	               4
    Mishandling of Technical Allegations	 8	                                         6	               4	              10
    Whistleblower Reprisal	                0	                                        2	               0	               2
    Proactive Initiatives	                 2	                                        2	               1	               3
    Project	                               7	                                        2	               2	               7
    Event Inquiries	                       1	                                        0	               0	               1
    			 Total Investigations	             34	                                       24	              14	              44




                                                                                                                                       37
                                                                                                               October 1, 2008 – March 31, 2009
                   AUDIT LISTINGS
                   Internal Program Audit and Special Evaluation Reports

                   Date	          Title	                                         Audit Number
                   03/31/2009 	   Audit of NRC’s Warehouse Operations	           OIG-09-A-09
                   03/16/2009	    Audit of NRC’s Agreement State Program	        OIG-09-A-08
                   02/11/2009	    Audit of NRC’s Occupant Emergency Program	 OIG-09-A-07
                   02/02/2009	    Audit of the Committee to Review Generic 	     OIG-09-A-06
                   	              Requirements
                   12/19/2008	    Transmittal of the Independent	                OIG- 09-A-05
                   	              Auditor’s Report on the Condensed
                   	              Financial Statements
                   12/17/2008	    Memorandum Report:  Review of NRC’s 	          OIG-09-A-04	
                   	              Implementation of the Federal Managers’
                   	              Financial Integrity Act for Fiscal Year 2008
                   11/20/2008	    Audit of National Source Tracking System 	     OIG-09-A-03
                   	              Information System Development
                   11/17/2008	    Independent Auditor’s Report on the 	          OIG-09-A-02
                   	              U.S. Nuclear Regulatory Commission’s
                   	              Special-Purpose Financial Statements
                   	              as of September 30, 2008, and for the
                   	              Year then Ended
                   11/10/2008	    Results of the Audit of the United States 	    OIG-09-A-01
                   	              Nuclear Regulatory Commission’s Financial
                   	              Statements for Fiscal Year 2008




38
NRC OIG Semiannual Report
Contract Audit Reports

OIG	          Contractor/	                      Questioned	   Unsupported
Issue Date	   Contract Number	                    Costs	         Costs

10/07/08	     Information Systems Laboratories, Inc.
	             NRC-02-00-003	                           0	          0
	             NRC-03-00-003	                           0	          0
	             NRC-03-03-038	                           0	          0
	             NRC-04-01-052	                           0	          0
	             NRC-04-01-067	                           0	          0
	             NRC-04-02-054	                           0	          0
	             NRC-04-04-054	                           0	          0
	             NRC-04-04-065	                           0	          0
	             NRC-04-97-039	                           0	          0

10/07/08	     Southwest Research Institute
	             NRC-02-01-005	                           0	          0
	             NRC-02-02-012	                           0	          0
	             NRC-02-03-002	                           0	          0
	             NRC-02-03-005	                           0	          0
	             NRC-02-03-007	                           0	          0
	             NRC-02-04-001	                           0	          0
	             NRC-02-04-014	                           0	          0
	             NRC-02-06-021	                           0	          0
	             NRC-03-07-046	                           0	          0
	             NRC-04-07-064	                           0	          0

11/06/08	     Applied Programming Technology, Inc.
	             NRC-04-03-057	                       0	              0
	             NRC-04-03-057	                       0	              0
	             NRC-04-06-050	                       0	              0




                                                                                       39
                                                               October 1, 2008 – March 31, 2009
                   12/08/08	   Southwest Research Institute
                   	           NRC-02-01-005	                 0	   0
                   	           NRC-02-02-012	                 0	   0
                   	           NRC-02-03-002	                 0	   0
                   	           NRC-02-03-005	                 0	   0
                   	           NRC-02-03-007	                 0	   0
                   	           NRC-02-04-001	                 0	   0
                   	           NRC-02-04-014	                 0	   0
                   	           NRC-02-06-021	                 0	   0
                   	           NRC-03-07-046	                 0	   0
                   	           NRC-04-07-064	                 0	   0




40
NRC OIG Semiannual Report
                  AUDIT RESOLUTION ACTIVITIES
TABLE I
OIG Reports Containing Questioned Costs4
October 1, 2008, through March 31, 2009
	                                           	                                                Questioned	             Unsupported
	                                       Number of	                                              Costs	                  Costs
Reports	                                 Reports	                                             (Dollars)	              (Dollars)

A.	    For which no management decision
       had been made by the commencement
       of the reporting period	                                           1	                    $53,004	                     0

B.	    Which were issued during the
       reporting period	                                                  0	                         0	                      0

	      Subtotal (A + B)	                                                  1	                    $53,004	                     0

C.	    For which a management decision was
       made during the reporting period:

	      (i) 	 dollar value of disallowed costs	                            1	                    $53,004	                     0

	      (ii)	 dollar value of costs not disallowed	                        0	                         0	                      0

D.	    For which no management decision
       had been made by the end of the
       reporting period	                                                  1	                         0	                      0

E.	    For which no management decision was
       made within 6 months of issuance	                                  0	                         0	                      0

4
 Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure of funds; a finding that, at the time of the
audit, such costs are not supported by adequate documentation; or a finding that the expenditure of funds for the intended purpose
is unnecessary or unreasonable.




                                                                                                                              41
                                                                                             October 1, 2008 – March 31, 2009
          TABLE II
          OIG Reports Issued with Recommendations That Funds Be Put to Better Use5

          	                                                                    Number of	            Dollar Value
          Reports	                                                              Reports	              of Funds

          A.	    For which no management decision	 1	 $104,000
                 had been made by the commencement
                 of the reporting period			

          B.	    Which were issued during the 	 0	                                                           0
                 reporting period		

          C.	    For which a management decision was	
                 made during the reporting period:		

          	          (i) 	 dollar value of recommendations	                          1	                 $104,000
                 	         that were agreed to by management

          	       (ii) 	dollar value of recommendations 	                            0	                      0
                  	 that were not agreed to by management

          D.	    For which no management decision had	                               0	                      0
                 been made by the end of the reporting
                 period

          E.	    For which no management decision was	 0	 0
                 made within 6 months of issuance				



          5
           A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could be
          used more efficiently if NRC management took actions to implement and complete the recommendation,
          including: reductions in outlays; deobligation of funds from programs or operations; withdrawal of
          interest subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing
          recommended improvements related to the operations of NRC, a contractor, or a grantee; avoidance of
          unnecessary expenditures noted in preaward reviews of contract or grant agreements; or any other savings which are
          specifically identified.


42
NRC OIG Semiannual Report
TABLE III
Significant Recommendations Described in Previous Semiannual Reports on
Which Corrective Action Has Not Been Completed

Date	       Report Title	                                                  Number

05/26/03	   Audit of NRC’s Regulatory Oversight of Special 	             OIG-03-A-15
	           Nuclear Materials

	           Recommendation 1: Conduct periodic inspections to
	           verify that material licensees comply with material
	           control and accountability (MC&A) requirements,
	           including, but not limited to, visual inspections of
	           licensees’ special nuclear material (SNM) inventories
	           and validation of reported information.		

03/16/06	   Audit of the NRC’s Byproduct Materials License 	             OIG-06-A-11
	           Application and Review Process

	           Recommendation 2: Modify the license application and
	           review process to mitigate the risks identified in the
	           vulnerability assessment.

09/26/06	   Evaluation of NRC’s Use of Probabilistic Risk Assessment 	   OIG-06-A-24
	           in Regulating the Commercial Nuclear Power Industry

	           Recommendation 3: Conduct a full verification and
	           validation of SAPHIRE version 7.2 and GEM.

09/06/07	   Audit of NRC’s License Renewal Program 	                     OIG-07-A-15

	           Recommendation 3: Clarify guidance and adjust
	           procedures for auditors’ and inspectors’ removal of
	           licensee-provided documents from license renewal sites.

	           Recommendation 4: Establish requirements and
	           management controls to standardize the conduct and

                                                                                         43
	           depth of license renewal operating experience reviews.


                                                                 October 1, 2008 – March 31, 2009
      TABLE III (Continued)
      Significant Recommendations Described in Previous Semiannual Reports on
      Which Corrective Action Has Not Been Completed

      Date	        Report Title	                                                        Number

      09/06/07	    Audit of NRC’s License Renewal Program (Continued) 	               OIG-07-A-15

      	            Recommendation 7: Establish a review process to
      	            determine whether or not Interim Staff Guidance meets
      	            the provisions of 10 CFR 54.37(b), and document accordingly.

      03/28/08	    Audit of NRC’s Power Uprate Program	                               OIG-08-A-09

      	            Recommendation 1: Provide cross-references from baseline
      	            and other inspection procedures that are called for in IP 71004.




44
NRC OIG Semiannual Report
         ABBREVIATIONS AND ACRONYMS
AED	      Automatic External Defibrillator
C&A	      certification and accreditation
CRGR	     Committee to Review Generic Requirements
FEES	     License Fee Billing System
FY	       Fiscal Year
IAM	      Issue Area Monitor
IG	       Inspector General
IMPEP	    Integrated Materials Performance Evaluation Program
MC&A	     Material Control and Accounting
MD	       Management Directive
MOX	      Mixed Oxide
MURR	     University of Missouri Research Reactor Center
NMED	     Nuclear Material Events Database
NMSS	     Office of Nuclear Material Safety and Safeguards (NRC)
NRC 	     U.S. Nuclear Regulatory Commission
NSIR	     Office of Nuclear Security and Incident Response (NRC)
NSTS	     National Source Tracking System
OE	       Office of Enforcement (NRC)
OEP	      Occupant Emergency Program
OGE	      Office of Government Ethics
OIG 	     Office of the Inspector General (NRC)
PEKs	     Personal Emergency Kits
SAIC	     Science Applications International Corporation
RAI	      request for additional information
SNM	      special nuclear material
SPMS	     Space and Property Management System


                                                                                     45
                                                             October 1, 2008 – March 31, 2009
REPORTING REQUIREMENTS
                   The Inspector General Act of 1978, as amended (1988), specifies reporting require-
                   ments for semiannual reports. This index cross-references those requirements
                   to the applicable pages where they are fulfilled in this report.


                   CITATION	               REPORTING REQUIREMENTS	                                                PAGE

                   Section 4(a)(2)	        Review of Legislation and Regulations . ...............................6-9

                   Section 5(a)(1)	        Significant Problems, Abuses, and Deficiencies . .....16-26, 31-35

                   Section 5(a)(2) 	 Recommendations for Corrective Action ........................16-26

                   Section 5(a)(3) 	 Prior Significant Recommendations
                   	                 Not Yet Completed . ............................................................43-44

                   Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities ........................ 37

                   Section 5(a)(5) 	 Information or Assistance Refused . ................................. None

                   Section 5(a)(6) 	 Listing of Audit Reports .......................................................... 38

                   Section 5(a)(7)  	 Summary of Significant Reports ...........................16-26, 31-35

                   Section 5(a)(8) 	 Audit Reports — Questioned Costs ..................................... 41

                   Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use ............................ 42

                   Section 5(a)(10) 	 Audit Reports Issued Before Commencement
                   	                  of the Reporting Period for Which No
                   	                  Management Decision Has Been Made ...........................43-44

                   Section 5(a)(11) 	 Significant Revised Management Decisions .................... None

                   Section 5(a)(12) 	 Significant Management Decisions With
                   	                  Which OIG Disagreed ........................................................ None




46
NRC OIG Semiannual Report
                        47
OCTOBER 1, 2008 – MARCH 31, 2009
48
NRC
NRC OIG SEEMIANNUAL
           MIA
           MIANNUAL REP
              NNUAL  EPORT
                     EPO
                       ORT
